No.

In the Supreme Court of the United States

GAYLE MCNAMARA,
PETITIONER,
v.
UNITED STATES OF AMERICA,
RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PROOF OF SERVICE OF
MOTION TO PROCEED IN FORMA PAUPERIS AND
PETITION FOR WRIT OF CERTIORARI

James B. Krasnoo, Esq.
Counsel of Record
Krasnoo, Klehm & Falkner LLP
28 Andover Street, Suite 240
Andover, MA 01810
jkrasnoo@kkf-attorneys.com
(978) 475-9955
On Petition:
Benjamin L. Falkner, Esq.
bfalkner@kkf-attorneys.com

CERTIFICATE OF SERVICE
I, James B. Krasnoo, Esq., a member of the bar of this Court, do swear
or declare that on this date, August 24, 2020, as required by Rule 29, I have
served a copy of the enclosed Motion For Leave To Proceed In Forma
Pauperis and Petition For A Writ Of Certiorari, on each party to the above
proceeding or that party’s counsel, by delivering each on August 24, 2020 to a
third-party commercial carrier (Federal Express) for next-day delivery, and,
additionally, to each party or that party’s counsel by email. Those served are
as follow:
Respondent United States of America:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Petitioner
Gayle McNamara
By her Attorney,

James B. Krasnoo, Esq.
Counsel of Record
Krasnoo, Klehm & Falkner LLP
28 Andover Street, Suite 240
Andover, MA 01810
jkrasnoo@kkf-attorneys.com
(978) 475-9955
On Petition:
Benjamin L. Falkner, Esq.
bfalkner@kkf-attorneys.com

